 



U.S. Department of Labor                  Office of Inspector General
                                          Washington, DC. 20210




September 29, 2014


MEMORANDUM FOR:             JOSEPH A. MAIN
                            Assistant Secretary
                             for Mine Safety and Health




FROM:                       ELLIOT P. LEWIS
                            Assistant Inspector General
                             for Audit

SUBJECT:                    Alleged Waste of Government Funds by MSHA Employees
                            Report Number: 05-14-004-06-001

On May 22, 2012, the Office of Inspector General, Complaint Analysis Office received a
complaint alleging fraud, waste and abuse within MSHA. Specifically, the complaint
alleged unacceptable behavior and inappropriate use of travel funds related to MSHA’s
participation in two Joint Western Regional Safety and Health Conferences (Safety and
Health Conference), a planning meeting for MSHA’s 2012 Metal Nonmetal National
Mine Rescue Contest, and a 2010 MSHA Western District Office supervisors’ meeting.

Depending on their nature, the allegations were initially assigned either to the Office of
Audit or the Office of Inspections and Special Investigations (OISI) within the Office of
Inspector General. Also, after performing our preliminary review of the allegations
assigned to the Office of Audit, we conferred with OISI, which agreed to investigate four
allegations involving potentially criminal activity. OISI completed its investigation of all
allegations it was assigned and determined that its findings did not merit any
administrative or other referrals to MSHA management.

This memorandum details the results of our review of the allegations not referred to
OISI for investigation. We did not perform an audit of the allegations; therefore, we did
not conduct our limited review of these allegations in accordance with Generally
Accepted Government Auditing Standards.

Results in Brief

The complaint included allegations of unnecessary travel costs for MSHA’s attendance
at the 2010 and 2011 Joint Western Regional Safety and Health Conference (Safety


 
                                            ‐ 2 ‐ 
 

and Health Conference). Additionally, the complaint included allegations of questionable
travel practices by employees attending a planning meeting for MSHA’s 2012 MNM
National Mine Rescue Contest, and unnecessary travel costs related to a 2010 Western
District Office supervisors’ meeting.

We could not conclusively determine if travel to the Safety and Health Conferences was
necessary. However, we did find questionable travel by a now retired MSHA official
related to his trip to a planning meeting. Additionally, we found that MSHA wasted travel
funds by holding a district office supervisors’ meeting in Reno, Nevada, instead of at the
district office.

We recommend that MSHA follow the Department of Labor’s October 2011 procedures
for travel to conferences, contests, and meetings, as well as the MSHA clearance
processes implemented in 2012 and 2013.


Background and Results

The purpose of the Mine Safety and Health Administration is to prevent death, disease,
and injury from mining and to promote safe and healthful workplaces for the Nation’s
miners. As part of its stated mission to promote safe and healthful workplaces, MSHA
takes part in the planning and operation of mine safety and health conferences and
regional and national mine rescue contests. Its involvement includes funding travel
costs to conferences and contests.

The Nevada Mining Association, with the assistance of MSHA and mining industry
representatives, organizes an annual Safety and Health Conference. The purposes of
the conference are to: (1) forge partnerships with a focus on achieving zero fatalities,
injuries, and occupational illnesses; (2) gain a better understanding of how to send
every miner home safe and healthy after every shift; (3) foster a better relationship
between industry and federal agencies; and (4) sustain an open dialogue of similar
interest in safety and health, between industry and federal agencies. MSHA employees
hold positions on the conference planning committee and take an active part in the
conference. The 2010 conference was held in Reno and the 2011 conference was held
in Las Vegas.

The allegations we reviewed were that:

    1) MSHA sent employees to a 2010 conference in Reno, Nevada, and a 2011
       conference in Las Vegas, Nevada, who were not required or did not need to be
       there;

    2) MSHA officials who attended a Metal Nonmetal Mine Rescue Contest planning
       meeting in March 2012 received kickbacks, and a District Manager remained at
       the meeting an extra day; and

    3) MSHA held a district supervisors’ meeting in Reno instead of at the district office.

                                               
 
                                            ‐ 3 ‐ 
 


The detailed results of our review of the allegations are as follows:

(1) 	Attendance of MSHA Employees at the October 25, 2010, and October 23,
    2012 Safety and Health Conferences

Allegation

This complaint alleged that many employees present at the conferences were not
required or did not need to attend.

Result: Unsubstantiated

We identified 30 MSHA employees who traveled to the 2010 Safety and Health
Conference in Reno, of which the complainant believed half did not need to attend, and
32 MSHA employees who traveled to 2011 Safety and Health Conference in Las Vegas,
of which the complainant believed 21 did not need to attend.

We interviewed numerous MSHA and industry officials to discuss MSHA’s role and
attendance at the conferences. Based on these interviews, we determined that the
conferences could have taken place without any assistance or participation by MSHA.
However, according to MSHA and industry representatives we interviewed, the MSHA
employees who attended provided valuable services to the conferences. These officials
stated that MSHA’s absence would have compromised the quality of the conference,
possibly impacting industry attendance at future conferences.

Management has wide latitude in determining which staff it believes should attend such
conferences based on a variety of factors. As a result we were unable to come to a
definitive conclusion regarding the exact number of MSHA staff who should have
attended.

(2) March 19, 2012, Reno Metal/Non Metal Mine Rescue Contest Planning Meeting

Allegation

This complaint alleged that (a) MSHA personnel received kickbacks from hotels,
including free limousine rides, meals and lodging during preplanning meetings for the
Metal and Nonmetal National Mine Rescue Contest; and (b) a District Manager stayed
an extra day in Reno after the planning meeting.

Results: Unsubstantiated in part and Inconclusive in part

(a) Unsubstantiated. We found no evidence of kickbacks, free meals, or inappropriate
limousine rides during the planning meetings. We did determine that the hotel provided
a shuttle service to and from the airport for Mine Rescue Contest attendees, and the
service may have been by limousine or van. However, we did not deem the shuttle

                                               
 
                                            ‐ 4 ‐ 
 

service to be a kickback or inappropriate, as this was a standard service provided for
groups staying at the hotel.

(b) Inconclusive. We reviewed the District Manager’s travel vouchers and determined
that he stayed a day longer than the other Planning Committee members. When we
interviewed him, he explained that he remained in Reno an extra day to meet with the
various conference organizers to make arrangements for the contests. We were unable
to fully resolve this allegation because the District Manager retired after we interviewed
him but before providing us the supporting documentation we requested. We were
unable to reach him after he retired. Due to the low dollar value involved, we did not
continue our review.

(3) September 13, 2010, Reno Western District Supervisors Meeting

Allegation

This complaint alleged that an MSHA supervisors meeting was held in Reno, Nevada,
instead of the Vacaville, California, District Office, where most of the supervisors in
question were stationed. The complaint alleged that many individuals would not have
incurred travel costs if the meeting had been held in the District Office.

Result: Substantiated

We found that 16 people traveled to Reno to attend a supervisors meeting, of which 10
were stationed in the Vacaville District Office. The meeting was scheduled during the
same week as a one day planning committee meeting for the Joint Western Regional
Mine Safety and Health Conference. MSHA told us the supervisors meeting was
scheduled the same week to take advantage of the travel required for the planning
committee meeting. However, only four of the ten employees attended both meetings.
We estimate that MSHA spent nearly $4,000 more in travel costs to hold the
supervisors meeting in Reno rather than Vacaville.

Recommendation

We recommend that MSHA follow the Department of Labor’s October 2011 procedures
for travel to conferences, contests, and meetings, as well as the MSHA clearance
processes implemented in 2012 and 2013. Among other things, these procedures
require documentation of the reason and estimated costs of the trip, and written
justification for the location of the event and the necessity of each traveler at the event.

In accordance with DLMS 8 – Chapter 500, paragraph 533, you are requested to
provide a written response within 60 days indicating your agreement or disagreement
with the above recommendation. If you agree with the recommendation, your response
should identify planned corrective actions, officials responsible for such actions, and
dates by which the actions should be taken and full implementation achieved. If you



                                               
 
                                           ‐ 5 ‐ 
 

disagree with the recommendation, your response should fully explain the reason(s) for
the disagreement.

We appreciate the cooperation and courtesies that MSHA personnel extended to the
Office of Inspector General during this review. If you or your staff has any questions,
please call Nicholas Christopher, Audit Director, at (312) 353-2416.

cc: 	   Douglas Parker, Deputy Assistant Secretary for Policy
        Angelica Hackney, MSHA
        Monique Gregory, MSHA




                                              
 
